          FEDERAL HOUSING FINANCE AGENCY
            OFFICE OF INSPECTOR GENERAL


                     FHFA’s Call Report System




Audit Report: AUD-2012-006                       July 19, 2012
                                                July 19, 2012


TO:              Jon Greenlee, Deputy Director of Enterprise Regulation
                 Naa Awaa Tagoe, Senior Associate Director of Financial Analysis, Modeling &
                 Simulations




FROM:            Russell A. Rau, Deputy Inspector General for Audits


SUBJECT:         FHFA’s Call Report System (Audit Report No. AUD-2012-006)


Summary

The mission of the Federal Housing Finance Agency (FHFA or Agency) includes supervising
and regulating the Federal National Mortgage Association (Fannie Mae), the Federal Home Loan
Mortgage Corporation (Freddie Mac), and the 12 Federal Home Loan Banks (FHLBanks)—
collectively, the GSEs. In the wake of the housing crisis, the importance of this mission is made
clear by the approximately $187.5 billion in taxpayer funds that have been invested through
March 31, 2012, to stabilize Fannie Mae and Freddie Mac (collectively, the Enterprises).1 In
part, the Agency safeguards the public’s investment by analyzing the GSEs’ financial and
performance data to ensure their safety and soundness. FHFA’s Office of Inspector General
(FHFA-OIG) concludes that FHFA can enhance its supervision of the Enterprises by analyzing
opportunities to better use the Agency’s call report system (CRS).

CRS gathers GSE data and funnels valuable oversight information, such as quarterly financial
reports, into a central database that FHFA divisions can access to monitor and examine GSE
activity. For example, CRS contains data on the $5.3 trillion total net assets held by Fannie Mae
and Freddie Mac through 2011. However, despite requiring the Enterprises to enter data into
CRS, FHFA has not optimized its use of the system to enhance its oversight. For example, two
FHFA supervisory divisions rarely use CRS in their analysis and oversight of the Enterprises;
instead, they receive routine submissions of loan-level data and standard management reports

1
 The Housing and Economic Reform Act of 2008 authorized the Department of the Treasury to support the
Enterprises by purchasing their preferred stock pursuant to Senior Preferred Stock Purchase Agreements.


           Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
containing relevant metrics and data.2 These submissions are supplemented by ad hoc requests
for additional data. The standard management reports submitted by the Enterprises are the same
reports used by their senior executives to track financial performance and risk exposure, and in
some instances to brief the Board of Directors. Given the existence of CRS (and the pre-existing
investment in it), FHFA should consider using the system’s data to supplement or replace
information drawn from these other sources.

In addition, data produced pursuant to ad hoc requests may not be subject to the same integrity
controls as are associated with CRS information. For example, CRS security controls have been
independently evaluated in accordance with Federal guidelines.3 Also, FHLBank and Enterprise
management attest to the accuracy of CRS data in their respective call reports.

Recently, FHFA has taken some positive steps with respect to CRS. For example, the division
that examines the Enterprises has a new management team that is experienced with CRS and has
expressed support for using the system. Along with FHFA-OIG’s recommendations to analyze
further integrating CRS data into GSE oversight, such steps can advance FHFA’s ability to
promote the GSEs’ safety and soundness and to protect the taxpayers’ financial stake in their
performance.

Background

The Housing and Recovery Act of 2008 (HERA) created FHFA out of two agencies, the Federal
Housing Finance Board (FHFB) and the Office of Federal Housing Enterprise Oversight
(OFHEO), to: promote the GSEs’ safety and soundness; support housing finance and affordable
housing goals; and facilitate a stable and liquid mortgage market. To help meet these objectives,
FHFA established one support and three supervisory divisions that correspond to the Agency’s
major oversight responsibilities.




2
  In contrast, the Agency’s Division of Bank Regulation, which oversees the FHLBanks, extensively uses CRS data
to monitor, examine, and verify FHLBank activity.
3
 In 2009, FHFA’s Chief Information Security Officer reported that an independent security certification of CRS
was conducted in 2009 in accordance with certification and accreditation guidance from the Office of Management
and Budget and the National Institute of Standards and Technology. Based on a review of the certification results,
FHFA’s Chief Information Officer determined that CRS system risk was acceptable in terms of agency operations
and assets.


           Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                         2
                     Figure 1: FHFA’s Supervisory and Support Divisions
                                                 FHFA's
                                             Acting Director

                       Division of             Division of             Division of
                          Bank                 Enterprise            Housing Mission
                       Regulation              Regulation              and Goals



                             Division of Examination Programs and Support


As shown in Figure 1 above, FHFA’s supervisory divisions oversee the FHLBanks, the
Enterprises, and the accomplishment of their respective housing goals (e.g., affordable housing),
while the support division helps the three supervisory divisions apply consistent examination
programs. More specifically:

       The Division of Bank Regulation (DBR)

       FHFA’s DBR monitors the FHLBanks and uses the results to plan annual examinations.
       Along with periodic visits, this helps the division assess the banks’ financial condition
       and performance in addition to their regulatory compliance.

       The Division of Enterprise Regulation (DER)

       Similar to DBR, the Agency’s DER monitors the Enterprises and uses the results to plan
       annual examinations, which also combine with periodic visits to help the division assess
       their financial condition and performance and their regulatory compliance.

       The Division of Housing Mission and Goals (DHMG)

       DHMG is responsible for the development, analysis, and oversight of: the Agency’s
       housing and regulatory policy; the Enterprises’ mission and goals; and the FHLBanks’
       housing finance and community and economic development missions.

       The Division of Examination Programs and Support (DEPS)

       FHFA’s DEPS develops and supports examination programs for the three supervisory
       divisions, including their risk examination and modeling. DEPS also develops guidance
       for ensuring the GSEs’ safety and soundness; establishes policies for their accounting,
       auditing, and financial disclosure; monitors their compliance with policy; and promotes
       consistent accounting practices that provide for financial transparency.


         Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                    3
In general, the divisions supervise by monitoring and examining the GSEs, which means they
need efficient access to current, quality information about GSE finances and performance. To
help the divisions accomplish their oversight, FHFA requires GSEs to submit data about their
condition and performance via multiple platforms, including loan-level data submissions,
submissions of routine management reports, and CRS.

          What is CRS?

CRS is a centralized information system that can provide data for various oversight analyses.

In 2001, one of FHFA’s predecessor organizations, FHFB, implemented CRS to collect
information from the FHLBanks. In 2006, the Agency’s other predecessor, OFHEO,4 initiated a
project to develop its own CRS to manage the Enterprises’ data and make their condition and
risks more transparent.5 The project’s participant included a number of key stakeholders,
including many who are now members of FHFA’s executive management team (e.g., the Acting
Director). In 2008, FHFA adopted FHFB’s CRS and expanded its scope to include Enterprise
data. In 2011, FHFA established goals for enhancing CRS as an automated supervisory tool to
measure risk, analyze finances, and examine both the FHLBanks’ and the Enterprises’
performance and compliance.

The Enterprises and the FHLBanks funnel their information into CRS through different channels.
The Enterprises enter data directly into the system. Alternatively, the FHLBanks generally
submit their information to the Office of Finance, which validates, manages, and controls the
data. As a safeguard, the FHLBanks can enter data into the system manually to adjust (e.g.,
correct, clarify, etc.) the Office of Finance’s submissions.

The following figure shows the information flow from the GSEs to the FHFA divisions that
monitor, examine, and analyze the GSEs’ data.




4
    OFHEO and FHFB preceded FHFA; HERA abolished both predecessor agencies.
5
    OFHEO Strategic Plan, 2006-2011.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                        4
      Figure 2: Data Flow from GSEs Through CRS to FHFA’s Supervisory Divisions
            External Users                   Call Report System                  FHFA Examination
             (Data Input)                                                        and Support Teams

     Financial Reporting System
          Office of Finance                                                              DBR ‒
                                                               FHLBank Data             Monitoring
                                                                                       and Analysis


                                                    Call
                            Manually               Report      FHLBank Data            DBR ‒ FHLB
             FHLBanks                                                                  Examination
                                                   System
                                                                                         Teams


                                                               Fair Value             FHLBank Data
            Enterprises
                                                               Balance Sheet
                                                                                        DHMG ‒
                                                                                    Financial Analysis


                                                                                       DER ‒ does
                                                                                       not use CRS


The GSEs and FHFA divisions have taken steps to provide for the integrity of CRS data,
including manual and automated controls to help ensure accuracy and completeness. DBR’s
bank evaluation teams test those controls at each bank. Similarly, uploaded data are validated
against information that GSEs submit in other reports (e.g., FHLBanks’ financial statements).
Moreover, the FHLBanks and the Enterprises are required by FHFA policy to have a senior
official attest that their call report data are true and correct. Also, for verification purposes,
supporting records must be maintained.

CRS provides an integrated framework through which the GSEs report data that FHFA’s
supervisory divisions can use to assess their safety, soundness, and mission compliance. Yet,
only DBR uses the system comprehensively.

        Divisions’ Use of CRS Data to Supervise GSEs

CRS provides almost all the data DBR uses to facilitate its day-to-day oversight of the
FHLBanks.6 For example, the division pulls data from CRS, such as accounting information, to

6
  Roughly 90% of all the data DBR uses comes from CRS; the division also relies on the FHLBanks’ financial
statements, their membership database, and public sources such as Securities and Exchange Commission reports.
These sources are useful because they contain comparative data about the broader financial markets.


           Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                       5
populate charts and graphs that show the banks’ financial activity and condition. This
information helps DBR analyze financial trends or activities, including investments, mortgages,
and earnings.

DBR’s examination teams also use CRS data to plan their examinations and to validate
information provided by the FHLBanks. For example, CRS contains financial statement data,
including performance/risk metrics, that help DBR plan its examinations. Specifically, DBR can
pull data about an FHLBank’s investment portfolio and measure it against similar investments by
other FHLBanks.7 If the portfolio is underperforming comparatively, DBR may focus its
examination resources to find out why. According to DBR officials, CRS is critical to the
success of their financial analyses and examinations.

Unlike DBR’s well-established use of the FHLBanks’ CRS data since 2001, the Enterprises did
not begin entering information into CRS until 2008. Further, with resources focused on merging
its two predecessors (i.e., FHFB and OFHEO) and stabilizing the GSEs, FHFA did not fully
integrate the relatively new data system for the Enterprises into its oversight of them through
DHMG and DER.

For example, in contrast to DBR’s robust use, DHMG’s Financial Analysis Branch of the Office
of Financial Analysis, Modeling and Simulations uses only one CRS report for analysis of the
Enterprises: Fannie Mae’s fair value balance sheet, which is an accounting estimate of assets
and liabilities. DHMG uses the estimate together with data from multiple sources to prepare
monthly financial performance reports. Otherwise, the Enterprises submit data used for
DHMG’s oversight via loan-level data submissions and Excel spreadsheets. DHMG also relies
on routine submissions of electronic copies of standard management reports, quarterly financial
reports, industry reports, and commercial sources of financial data.

DER does not use any information in the system to plan, validate, or otherwise facilitate its
Enterprise examinations. Instead, the division relies on ad hoc data requests and conversations
with Enterprise management to assess emerging risks.

DEPS, which manages CRS and supports the other divisions’ examinations, also has not
developed guidance for fully integrating the system into supervisory activities.

In summary, CRS offers FHFA supervisory divisions a central data repository that can help them
monitor, assess, and examine GSEs to ensure their safety and soundness. The various divisions’
use of CRS, however, differ considerably.

7
  For the FHLBanks, there are nine categories of schedules (i.e., reports): monthly, quarterly, book value,
income/expense, fair value, derivatives, member summary, community investments, and advances. Each category
has multiple reports, which include mortgage loans held in portfolio, securities, and liquidity.


          Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                      6
Audit Objective

FHFA-OIG initiated this performance audit to assess FHFA’s use of CRS to facilitate its
oversight of the GSEs. Specifically, the audit addressed: (1) DBR, DHMG, and DER’s
comparative use of CRS; and (2) FHFA’s reliance on ad hoc data collection and reporting in lieu
of CRS.

Finding: FHFA Can Enhance Its Supervision of the Enterprises by Analyzing
         Opportunities to Better Use CRS

FHFA has supported using CRS to strengthen its oversight of the Enterprises. In 2011, the
Agency set a goal of enhancing automated supervisory tools, such as CRS, to facilitate oversight
activities.8 This goal is in line with the Office of Management and Budget’s Management of
Federal Information Resources directive, which requires federal agencies to review periodically
their information systems to determine if they fit agency mission requirements.9 Generally, such
evaluative reviews can “document effective management practices for broader use.”10 Further,
after implementing systems such as CRS, agencies should analyze what information they use and
how it flows through their organization, which indicates “where the information is needed and
how the information is shared to support mission functions.”11

However, DHMG’s use of CRS data for analysis of the Enterprises is limited and DER does not
use any CRS data to plan, validate, or otherwise facilitate Enterprise examinations. This limited
use is partly due to CRS not becoming available for Enterprise data until 2008 when HERA
created FHFA. Further, due to the need to merge its two predecessors into one Agency and
simultaneously stabilizing the GSEs, FHFA has yet to establish processes that fully integrate the
system into its day-to-day supervision of the Enterprises.

As a result, the Enterprises populate the system with financial statements and related
information, but DHMG and DER rely on the submissions of loan-level data and electronic
copies of management reports used by executives at the Enterprises to track financial
performance and risk exposure. This alternative information is supplemented by ad hoc data
requests as necessary. Gathering data this way outside of CRS, however, can lead to
inefficiency, uncertainty, and inconsistency.



8
    FHFA, 2011 Annual Performance Plan (Goal 4.4).
9
 Office of Management and Budget, Management of Federal Information Resources, Circular A-130 Revised,
“Policy,” (b)(1)(c)(ii).
10
     Id., (b)(1)(d)(i).
11
     Id., (b)(2)(b)(ii).


               Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                          7
FHFA’s supervisory efficiency could increase if GSEs regularly populate CRS with data
routinely required by its divisions, such as information about seriously delinquent loans,
borrower assistance, and property inventory. Instead, FHFA’s divisions separately–and
potentially duplicatively–draw information from over 200 data reports, including the Enterprises,
newspapers, and other commercial data providers (e.g., Bloomberg). With this data available in
CRS, FHFA’s divisions could reduce their reliance on so many outside sources and instead query
a more centralized database.

Uncertainty is another risk of not using CRS. For example, the Office of Finance helps assure
the integrity and quality of data submitted by FHLBanks. Similarly, the Enterprises are required
to have their respective CFOs (or designees) validate CRS data. FHFA’s divisions, however, do
not have the same level of assurance of the integrity of data gathered through other sources. In
particular, information collected through conversations or compiled in response to ad hoc data
requests may be less reliable to the extent that it is only as good as an individual’s memory or a
compiler’s care.

Last, decentralized data collection can cause inconsistency. Because requests are separate,
responses can differ in terms of what and how data is presented. For example, although both
Enterprises follow generally accepted accounting principles, they account differently for interest
income associated with loans that have missed payments.12 Consistent use of CRS would help
standardize how Enterprises report such data and would facilitate cross-comparisons.

Having faced its initial start-up challenges, FHFA can now mitigate these less than optimal
potential consequences by identifying effective practices that warrant wider use. For instance,
DHMG has initiated a project to determine if CRS contains the data its users need to conduct
their analyses and examinations, which is a prerequisite for using the system. And, in early
2012, a new DER management team—with practical experience using CRS—assumed
Enterprise examination responsibilities and expressed interest in expanding its use of the system
as it revises DER’s examination strategies.

Such Agency efforts can prove cost effective because the costs associated with creating,
designing, developing, and testing the system have already been paid. In addition, the system
underwent two major upgrades in 2005 and 2009. With DEPS finalizing plans to standardize
GSE supervisory examination processes, FHFA has an opportunity to analyze how to integrate
CRS more fully into its supervision and regulation of the Enterprises. Such steps can help


12
  Specifically, Fannie Mae’s non-accrual is triggered at two months of missed payments, and accrued interest
remains on the balance sheet and is included in the allowance process; but Freddie Mac’s non-accrual is triggered at
three months of missed payments, and accrued interest is reversed through interest income at the time the loan is
placed in non-accrual.


           Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                         8
advance FHFA’s overall ability to promote the GSEs’ safety and soundness, and to protect the
taxpayers’ investment in the Enterprises.

Recommendations

FHFA-OIG recommends that DER’s Deputy Director, in collaboration with the Office of
Financial Analysis’ Senior Associate Director, ensure that the Agency:

   1. Analyzes opportunities to use CRS information to facilitate supervision and regulation of
      the Enterprises;
   2. Supports identified opportunities with detailed supervisory and support division
      requirements for using CRS in its oversight planning and monitoring; and
   3. If current CRS capabilities need improvement, directs divisions to work with FHFA’s
      Office of Technology and Information Management and CRS system owners to enhance
      CRS to meet the Agency’s supervisory needs.

FHFA Comments

As shown in the attached appendices, FHFA agreed with FHFA-OIG’s recommendations and is
planning to take responsive corrective actions.

Scope and Methodology

FHFA-OIG performed its fieldwork for this performance audit from October 2011 through
March 2012. The audit was conducted at FHFA’s headquarters in Washington, DC.

To achieve its objective, FHFA-OIG reviewed relevant FHFA policies and procedures and CRS
schedules, reports, and system documentation. As necessary and appropriate, the audit team also
interviewed officials with FHFA, Fannie Mae, and Freddie Mac. In accordance with FHFA-
OIG’s policies and procedures, these reviews and interviews were to understand and support its
conclusions about:

      The breadth and significance of CRS;
      Criteria used to implement CRS, including legal and regulatory requirements; and
      Related internal controls.




         Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                    9
The Agency has determined that loss of the system’s security with respect to data confidentiality,
integrity, and availability would have a low impact on FHFA according to federal information
processing standards,13 and, thus, FHFA-OIG did not review or test CRS’ controls.

FHFA-OIG conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards, which require that audits be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for FHFA-OIG’s findings and
conclusions based on the audit objective. FHFA-OIG believes that the evidence obtained
provides a reasonable basis for the finding and recommendations included herein, based on the
audit objective. FHFA-OIG considers its finding to be significant in context of the audit
objective.

cc:     Edward DeMarco, Acting Director
        Richard Hornsby, Chief Operating Officer
        Mark Kinsey, Chief Financial Officer
        Kevin Winkler, Chief Information Officer
        John Major, Internal Controls and Audit Follow-Up Manager
        Bruce Crandlemire, Senior Advisor for IG Operations

Attachments:      Appendix A, FHFA’s Comments on the Finding and Recommendations
                  Appendix B, FHFA-OIG’s Response to FHFA’s Comments
                  Appendix C, Summary of Management’s Comments on the Recommendations




13
  See National Institute of Standards and Technology, Federal Information Processing Standards Publication199:
Standards for Security Categorization of Federal Information and Information Systems (February 2004).


           Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                      10
Appendix A: FHFA’s Comments on the Finding and
Recommendations




     Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                11
Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                           12
Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                           13
Appendix B: FHFA-OIG’s Response to FHFA’s Comments
On June 27, 2012, FHFA provided comments to a draft of this report, agreeing with all of the
recommendations and identifying FHFA actions to address them. FHFA-OIG considers FHFA’s
proposed actions sufficient to resolve the recommendations, which will remain open until FHFA-
OIG determines that agreed upon corrective actions are completed and responsive to the
recommendations. FHFA-OIG has attached the Agency’s full response (see Appendix A), which
was considered in finalizing this report. Appendix C provides a summary of management’s
comments on the recommendations and the status of agreed upon corrective actions.




         Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                    14
Appendix C: Summary of Management’s Comments on the
Recommendations
This table presents management’s response to the recommendations in FHFA-OIG’s report and
the status of the recommendations as of when the report was issued.



                                                          Expected
     Rec.           Corrective Action: Taken or          Completion      Monetary      Resolved:        Open or
     No.                      Planned                       Date         Benefits      Yes or Noa       Closedb
      1.       FHFA agreed with this                     12/27/2012        $0             Yes            Open
               recommendation and plans to ensure
               that the current uses of CRS are
               fully reviewed, with the primary
               goal of identifying any gaps or
               inconsistencies in current usage of
               existing data, either for supervision
               or for policy and regulation in
               furtherance of DHMG’s mission.
               The review and the identification of
               opportunities to better use CRS data
               with appropriate consideration of
               costs and benefits will be completed
               within a six-month period. FHFA
               will then decide the extent to which
               the Agency and the Enterprises
               should implement enhancements to
               CRS.
      2.       A project plan will be developed to          6/27/2013        $0            Yes           Open
               chart a path forward to execute the
               opportunities identified. Depending
               on the nature and breadth of
               opportunities identified, there may
               be multiple project plans to address
               all data usage issues. Development
               of project plans will take place
               within the six-month period after
               completion of the review referenced
               in Recommendation #1.




            Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                       15
                                                           Expected
      Rec.          Corrective Action: Taken or           Completion      Monetary      Resolved:        Open or
      No.                      Planned                       Date         Benefits      Yes or Noa       Closedb
       3.       FHFA will embark on systems                 TBD14           $0             Yes            Open
                enhancements that are needed to
                acquire additional data or improve
                existing means of maintaining or
                accessing data. The Office of
                Technology and Information
                Management will be engaged, as
                necessary, if an identified
                opportunity requires additional
                capabilities. Technical
                enhancements will be included, as
                appropriate, in the project plans
                referenced in the response to
                Recommendation #2.
     Total                                                                    $0
a
 Resolved means: (1) Management concurs with the recommendation, and the planned, ongoing, or completed
corrective action is consistent with the recommendation; (2) Management does not concur with the recommendation,
but alternative action meets the intent of the recommendation; or (3) Management agrees to the FHFA-OIG
monetary benefits, a different amount, or no amount ($0). Monetary benefits are considered resolved as long as
management provides an amount.
b
  Once FHFA-OIG determines that the agreed-upon corrective actions have been completed and are responsive, the
recommendations can be closed.




14
  Date to be determined. Any actions taken on Recommendation #3 depend on the results of the determination of
CRS enhancements addressed in Recommendation #1 as well as the development of the project plan addressed in
Recommendation #2. As such, an estimated completion date for Recommendation #3 cannot be determined by the
Agency at this time. FHFA-OIG will follow up with the Agency on June 27, 2013, to obtain an estimated date for
Recommendation #3 should CRS system changes be required.


             Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                        16
ADDITIONAL INFORMATION AND COPIES


For additional copies of this report:

        Call the Office of Inspector General: (202) 730-0880
        Fax your request: (202) 318-0239
        Visit FHFA-OIG’s website at: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

        Call our Hotline at: (800) 793-7724
        Fax your written complaint: (202) 318-0385
        Email us: oighotline@fhfaoig.gov
        Write us: FHFA Office of Inspector General
                   Attn: Office of Investigation – Hotline
                   400 7th Street, SW
                   Washington, DC 20024




          Federal Housing Finance Agency Office of Inspector General • AUD-2012-006 • July 19, 2012
                                                     17
